No. 19-1097
INTHE

Qlnurt nf e 1llttileb
ENZO LIFE SCIENCES, INC.,

Petitioner,
v.
BECTON, DICKINSON AND COMPANY,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF SERVICE

I, Thomas G. Saunders, a member of the bar of this Court, hereby certify that all
parties have consented to electronic service and that, on this 6th day of May, 2020, all
parties required to be served have been served copies of the Brief in Opposition in this
matter by email to the addresses below.
JUSTIN P.D. WILCOX
DESMARAIS LLP

230 Park Avenue
New York, NY 10169
(212) 351-3400
jwilcox@desmaraisllp.com

NOEL J. FRANCISCO
SOLICITOR GENERAL
BENJAMIN SNYDER
UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
benjamin.snyder@USDOJ.gov

THOMAS G. SAUNDERS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW

Washington, DC 20006
(202) 663-6536
thomas.saunders@wilmerhale.com

